APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS,
SEVENTH CIRCUIT
_________
FLORENCE MUSSAT, M.D., S.C., on behalf of itself
and all others similarly situated,
Plaintiff-Appellant,
v.
IQVIA, INC., et al.,
Defendants-Appellees.
_________
No. 19-1204
_________
Argued: September 27, 2019
_________
Decided: March 11, 2020
_________
Rehearing and Rehearing En Banc Denied:
May 14, 2020*
_________
Before Wood, Chief Judge, and Kanne and Barrett,
Circuit Judges.

*

Judge Joel M. Flaum did not participate in the consideration
of this matter.

2a
Opinion
WOOD, Chief Judge.
Florence Mussat, an Illinois physician doing
business through a professional services corporation,
received two unsolicited faxes from IQVIA, a
Delaware corporation with its headquarters in
Pennsylvania. These faxes failed to include the optout notice required by federal statute. Mussat’s
corporation (to which we refer simply as Mussat)
brought a putative class action in the Northern
District of Illinois under the Telephone Consumer
Protection Act, 47 U.S.C. § 227, on behalf of itself
and all persons in the country who had received
similar junk faxes from IQVIA in the four previous
years. IQVIA moved to strike the class definition,
arguing that the district court did not have personal
jurisdiction over the non-Illinois members of the
proposed nationwide class.
The district court granted the motion to strike,
reasoning that under the Supreme Court’s decision
in Bristol-Myers Squibb Co. v. Superior Court, –––
U.S. ––––, 137 S. Ct. 1773, 198 L.Ed.2d 395 (2017),
not just the named plaintiff, but also the unnamed
members of the class, each had to show minimum
contacts between the defendant and the forum state.
Because IQVIA is not subject to general jurisdiction
in Illinois, the district court turned to specific
jurisdiction. Applying those rules, see Walden v.
Fiore, 571 U.S. 277, 283–86, 134 S.Ct. 1115, 188
L.Ed.2d 12 (2014), it found that it had no jurisdiction
over the claims of parties who, unlike Mussat, were
harmed outside of Illinois. We granted Mussat’s
petition to appeal from that order under Federal

3a
Rule of Civil Procedure 23(f). We now reaffirm the
Rule 23(f) order, and we hold that the principles
announced in Bristol-Myers do not apply to the case
of a nationwide class action filed in federal court
under a federal statute. We reverse the order of the
district court and remand for further proceedings.
I
Before examining the personal-jurisdiction issue,
we must assure ourselves that this appeal falls
within the scope of Rule 23(f), which “permit[s] an
appeal from an order granting or denying classaction certification under this rule.” Fed. R. Civ. P.
23(f). IQVIA argues that the order before us neither
grants nor denies class status and thus it is an
ordinary interlocutory order that must await final
judgment before review is possible. See 28 U.S.C.
§ 1291. It is true that the district court’s order does
not say, in so many words, that it is granting or
denying class certification. But that is not the end of
the story. Here is what the district court did:
pursuant to Federal Rule of Civil Procedure 12, it
granted IQVIA’s motion to strike Mussat’s class
definition, insofar as Mussat proposed to assert
claims on behalf of people with no contacts to Illinois.
IQVIA observes that Mussat is still free to seek
certification of an Illinois-only class. More
fundamentally, it contends that the plain language of
Rule 23(f) forecloses jurisdiction over this appeal
because the order responded to a motion to strike,
not a motion to certify (or decertify) a class. Because
Rule 23(f) allows interlocutory appeals only from
orders “under this rule,” IQVIA concludes, an appeal
is not permitted here, where the district court made
its decision pursuant to Rule 12. We review this

4a
jurisdictional question de novo. Marshall v. Blake,
885 F.3d 1065, 1071 (7th Cir. 2018).
This is not the first time we have seen a Rule 12
motion to strike used this way in a putative class
action. In In re Bemis Co., Inc., 279 F.3d 419 (7th
Cir. 2002), the Equal Employment Opportunity
Commission (EEOC) brought a lawsuit against
Bemis Company on behalf of a class of African
American employees. Bemis answered, arguing that
the EEOC had not complied with Rule 23. The EEOC
moved to strike that part of the answer, and the
district court granted the motion. Bemis then
appealed under Rule 23(f). Just as IQVIA has done
here, the EEOC argued that this court had no
jurisdiction to hear the appeal “because the district
court’s order did not grant or deny class
certification.” 279 F.3d at 421. We were not
persuaded. We concluded that “[t]he rejection of
[Bemis’s] position was the functional equivalent of
denying a motion to certify a case as a class action, a
denial that Rule 23(f) makes appealable.” Id.
Our holding in Bemis has received the
endorsement of the Supreme Court. In Microsoft v.
Baker, ––– U.S. ––––, 137 S. Ct. 1702, 198 L.Ed.2d
132 (2017), the Court confirmed that “[a]n order
striking class allegation is functionally equivalent to
an order denying class certification and therefore
appealable under Rule 23(f).” Id. at 1711 n.7. In so
doing, it cited Bemis with approval. Id. Given the
Court’s endorsement of our reasoning, we see no
reason to find that Bemis was wrongly decided, as
IQVIA urges. The cases are clear: Rule 23(f) grants
the courts of appeals jurisdiction to hear
interlocutory appeals of orders that expressly or as a

5a
functional matter resolve the question of class
certification one way or the other.
The fact that Mussat still has an opportunity to
seek certification of a much narrower class does not
change anything. The district court’s order
eliminates all possibility of certifying the nationwide
class Mussat sought, and so to that extent it operates
as a denial of certification for one proposed class.
Rule 23(f) appeals are not limited to cases in which
the district court has definitively rejected any and all
possible hypothetical classes. To the contrary, we
have held that Rule 23(f) permits a party to appeal
the partial denial of a class. See Matz v. Household
Int’l Tax Reduction Inv. Plan, 687 F.3d 824, 826 (7th
Cir. 2012) (holding that the court had jurisdiction
under Rule 23(f) over a district court order partially
decertifying a class by eliminating 3,000 to 3,500
members); see also Driver v. AppleIllinois, LLC, 739
F.3d 1073, 1076 (7th Cir. 2014) (holding that orders
modifying class definitions may be appealed so long
as the alteration is “material”).
The district court’s order striking the nationwide
class was the functional equivalent of an order
denying certification of the class Mussat proposed.
We therefore have jurisdiction over this appeal under
Rule 23(f).
II
On to
principal
Supreme
decision

personal jurisdiction. IQVIA makes two
arguments: first, it contends that the
Court’s decision in Bristol-Myers requires a
in its favor; and second, it urges that

6a
Federal Rule of Civil Procedure 4(k) does the same.
We address these points in that order.
Before the Supreme Court’s decision in BristolMyers, there was a general consensus that due
process principles did not prohibit a plaintiff from
seeking to represent a nationwide class in federal
court, even if the federal court did not have general
jurisdiction over the defendant. See, e.g., Al Haj v.
Pfizer, Inc., 338 F. Supp. 3d 815, 818–19 (N.D. Ill.
2018) (noting that the defendant could not produce
any pre-Bristol-Myers decision holding that “in a
class action where defendant is not subject to general
jurisdiction, specific jurisdiction must be established
not only as to the named plaintiff(s), but also as to
the absent class members”). For cases relying on
specific jurisdiction over the defendant, minimum
contacts, purposeful availment, and relation to the
claim were assessed only with respect to the named
plaintiffs. Even if the links between the defendant
and an out-of-state unnamed class member were
confined to that person’s home state, that did not
destroy personal jurisdiction. Once certified, the
class as a whole is the litigating entity, see Payton v.
Cnty. of Kane, 308 F.3d 673, 680–81 (7th Cir. 2002),
and its affiliation with a forum depends only on the
named plaintiffs.
The Supreme Court has regularly entertained cases
involving nationwide classes where the plaintiff
relied on specific, rather than general, personal
jurisdiction in the trial court, without any comment
about the supposed jurisdictional problem IQVIA
raises. See, e.g., Wal-Mart Stores, Inc. v. Dukes, 564
U.S. 338, 131 S.Ct. 2541, 180 L.Ed.2d 374 (2011)
(nationwide class action brought in California court;

7a
defendant
headquartered
in
Arkansas
and
incorporated in Delaware); Phillips Petroleum Co. v.
Shutts, 472 U.S. 797, 105 S.Ct. 2965, 86 L.Ed.2d 628
(1985) (nationwide class action brought in Kansas
court; defendant headquartered in Oklahoma and
incorporated in Delaware); see also Califano v.
Yamasaki, 442 U.S. 682, 702, 99 S.Ct. 2545, 61
L.Ed.2d 176 (1979) (“Nothing in Rule 23 ... limits the
geographical scope of a class action that is brought in
conformity with that Rule.”). Although IQVIA and its
amici insist that class actions have always required
minimum contacts between all class members and
the forum, this is nothing more than ipse dixit.
Decades of case law show that this has not been the
practice of the federal courts. What is true, however,
is that this issue has not been examined closely. The
current debate was sparked by the Supreme Court’s
decision in Bristol-Myers—a case that did not involve
a certified class action, but instead was brought
under a different aggregation device. A closer look at
that decision illustrates why it does not govern here.
In Bristol-Myers, 600 plaintiffs, most of whom
were not California residents, filed a lawsuit in
California state court against Bristol-Myers Squibb,
asserting state-law claims based on injuries they
suffered from taking Plavix, a blood thinning drug.
137 S. Ct. at 1777. Bristol-Myers sold Plavix in
California, but it had no other contacts with the
state. The plaintiffs brought their case as a
coordinated mass action, which is a device
authorized under section 404 of the California Civil
Procedure Code, but which has no analogue in the
Federal Rules of Civil Procedure. That statute
provides in relevant part as follows:

8a
When civil actions sharing a common question
of fact or law are pending in different courts, a
petition for coordination may be submitted to
the Chairperson of the Judicial Council, by the
presiding judge of any such court, or by any
party .... A petition for coordination... shall be
supported by a declaration stating facts
showing that the actions are complex ... and
that the actions meet the standards specified
in Section 404.1. On receipt of a petition for
coordination, the Chairperson of the Judicial
Council may assign a judge to determine
whether the actions are complex, and if so,
whether coordination of the actions is
appropriate....
In other words, rather like the multi-district
litigation process in federal court, see 28 U.S.C.
§ 1407, section 404 permits consolidation of
individual cases, brought by individual plaintiffs,
when the necessary findings are made. The BristolMyers suit itself began as eight separate actions,
brought on behalf of 86 California residents and 592
residents of 33 other states. 137 S. Ct. at 1778.
In the Supreme Court, Bristol-Myers argued that
the California courts did not have jurisdiction over it
with respect to the claims of the plaintiffs who were
not California residents and had not purchased,
used, or been injured by Plavix in California. The
Court agreed. Id. at 1783–84. It noted that its
holding constituted a “straightforward application ...
of settled principles of personal jurisdiction.” Id. at
1783. (Interestingly, the California courts had held
that they had general jurisdiction over Bristol-Myers,
but that theory dropped out of the case after the

9a
Supreme Court’s decision in Daimler AG v. Bauman,
571 U.S. 117, 134 S.Ct. 746, 187 L.Ed.2d 624 (2014).)
Although Bristol-Myers arose in the context of
consolidated individual suits, the district court in our
case thought that the Bristol-Myers approach to
personal jurisdiction should be extended to certified
class actions. It held that the Due Process Clause of
the Fourteenth Amendment precludes the exercise of
personal jurisdiction over a defendant where
“nonresident, absent members [of a class] seek to
aggregate their claims with an in-forum resident,
even though the defendant allegedly injured the
nonresidents outside of the forum.” (Actually, in
federal court it is the Fifth Amendment’s Due
Process Clause that is applicable, but the mention of
the Fourteenth Amendment made no difference
here.) This meant, the court realized, that
nationwide class actions will, as a practical matter,
be impossible any time the defendant is not subject
to general jurisdiction. This would have been far
from the routine application of personal-jurisdiction
rules that Bristol-Myers said it was performing.
Nonetheless, the district court felt compelled to reach
that result.
Procedural formalities matter, however, as the
Supreme Court emphasized in Taylor v. Sturgell, 553
U.S. 880, 128 S.Ct. 2161, 171 L.Ed.2d 155 (2008),
where it stressed the importance of class certification
as a pre-requisite for binding a nonparty (including
an unnamed class member) to the outcome of a suit.
Id. at 894, 128 S.Ct. 2161. With that in mind, it
rejected the notion of “virtual representation” as an
end-run around the careful procedural protections
outlined in Rule 23. Id. at 901, 128 S.Ct. 2161. Class

10a
actions, in short, are different from many other types
of aggregate litigation, and that difference matters in
numerous ways for the unnamed members of the
class.
Bristol-Myers neither reached nor resolved the
question whether, in a Rule 23 class action, each
unnamed member of the class must separately
establish specific personal jurisdiction over a
defendant. In holding otherwise, the district court
failed to recognize the critical distinction between
this case and Bristol-Myers. The Bristol-Myers
plaintiffs brought a coordinated mass action, which
as we noted earlier does not involve any absentee
litigants. In a section 404 case, all of the plaintiffs
are named parties to the case. The statute allows the
trial court to consolidate their cases for resolution of
shared legal issues before moving on to individual
issues. In a Rule 23 class action, by contrast, the lead
plaintiffs earn the right to represent the interests of
absent class members by satisfying all four criteria of
Rule 23(a) and one branch of Rule 23(b). The absent
class members are not full parties to the case for
many purposes.
The proper characterization of the status of absent
class members depends on the issue. As the Supreme
Court recognized in Devlin v. Scardelletti, 536 U.S. 1,
122 S.Ct. 2005, 153 L.Ed.2d 27 (2002), “[n]onnamed
class members ... may be parties for some purposes
and not for others. The label ‘party’ does not indicate
an absolute characteristic, but rather a conclusion
about the applicability of various procedural rules
that may differ based on context.” Id. at 9–10, 122
S.Ct. 2005. For example, absent class members are
not considered parties for assessing whether the

11a
requirement of diverse citizenship under 28 U.S.C.
§ 1332 has been met. Id. at 10, 122 S.Ct. 2005
(“[N]onnamed class members cannot defeat complete
diversity....”). As long as the named representative
meets the amount-in-controversy requirement,
jurisdiction exists over the claims of the unnamed
members. Exxon Mobil Corp. v. Allapattah Servs.,
Inc., 545 U.S. 546, 566–67, 125 S.Ct. 2611, 162
L.Ed.2d 502 (2005) (relying on the supplemental
jurisdiction statute, 28 U.S.C. § 1367, and
recognizing that the statute overruled Zahn v. Int’l
Paper Co., 414 U.S. 291, 94 S.Ct. 505, 38 L.Ed.2d 511
(1973)). Nor are absent class members considered
when a court decides whether it is the proper venue.
Appleton Elec. Co. v. Advance-United Expressways,
494 F.2d 126, 140 (7th Cir. 1974) (holding that Rule
23 does not “require the establishment of venue for
nonrepresentative-party class members”). We see no
reason why personal jurisdiction should be treated
any differently from subject-matter jurisdiction and
venue: the named representatives must be able to
demonstrate either general or specific personal
jurisdiction, but the unnamed class members are not
required to do so.
This brings us to IQVIA’s second major point: that
allowing the non-Illinois unnamed class members to
proceed would be inconsistent with Federal Rule of
Civil Procedure 4(k), which governs service of
process. Rule 4(k)(1) states, in relevant part, that
“[s]erving a summons or filing a waiver of service
establishes personal jurisdiction over a defendant
who is subject to the jurisdiction of a court of general
jurisdiction in the state where the district court is
located.” IQVIA reads Rule 4(k) broadly, as not

12a
requiring merely that a plaintiff comply with statebased rules on the service of process, but also
establishing an independent limitation on a federal
court’s exercise of personal jurisdiction. Because
Illinois law would not authorize some of the absent
members of the putative class to sue IQVIA in
Illinois, the argument goes, Rule 4(k) prohibits the
federal district court in Illinois from exercising
jurisdiction.
Aside from the fact that IQVIA’s position is in
tension with Federal Rule of Civil Procedure 82,
which stipulates that the rules “do not extend or
limit the jurisdiction of the district courts or the
venue of actions in those courts,” there is a simpler
problem with it: IQVIA is mixing up the concepts of
service and jurisdiction. Rule 4(k) addresses how and
where to serve process; it does not specify on whom
process must be served. It is true that, with certain
exceptions, a federal district court has personal
jurisdiction only over a party who would be subject to
the jurisdiction of the state court where the federal
district court is located. But, as discussed above, a
district court need not have personal jurisdiction
over the claims of absent class members at all. The
rules permit a variety of representatives to sue in
their own names: an executor, an administrator, a
guardian, and a trustee, to name a few. See Fed. R.
Civ. P. 17(a)(1). If any of those is a defendant, the
court will assess personal jurisdiction with respect to
that person, not with respect to the person being
represented. So, too, with class actions: if the court
has personal jurisdiction over the defendant with
respect to the class representative’s claim, the case

13a
may proceed. Nothing in the Federal Rules governing
service of process contradicts this.
The rules for class certification support a focus on
the named representative for purposes of personal
jurisdiction. Rule 23(b)(3), for example, governs
damages class actions. Among the factors it lists is
“the desirability or undesirability of concentrating
the litigation of the claims in the particular forum.”
The Committee Note to this provision mentions that
a court should consider the desirability of the forum
“in contrast to allowing the claims to be litigated
separately in forums to which they would ordinarily
be brought.” Fed. R. Civ. P. 23(b)(3), Committee Note
to 1966 amendment. These provisions recognize that
a class action may extend beyond the boundaries of
the state where the lead plaintiff brings the case.
And nothing in the Rules frowns on nationwide class
actions, even in a forum where the defendant is not
subject to general jurisdiction.
Finally, it is worth recalling that the Supreme
Court in Bristol-Myers expressly reserved the
question whether its holding extended to the federal
courts at all. 137 S. Ct. at 1784 (“[S]ince our decision
concerns the due process limits on the exercise of
specific jurisdiction by a State, we leave open the
question whether the Fifth Amendment imposes the
same restrictions on the exercise of personal
jurisdiction by a federal court.”). In addition, the
opinion does not reach the question whether its
holding would apply to a class action. Id. at 1789 n.4
(Sotomayor, J., dissenting) (“The Court today does
not confront the question whether its opinion here
would also apply to a class action.”). Fitting this
problem into the broader edifice of class-action law,

14a
we are convinced that this is one of the areas
Scardelletti identified in which the absentees are
more like nonparties, and thus there is no need to
locate each and every one of them and conduct a
separate personal-jurisdiction analysis of their
claims.
III
Despite its insistence to the contrary, IQVIA urges
a major change in the law of personal jurisdiction
and class actions. This change is not warranted by
the Supreme Court’s decision in Bristol-Myers, nor
by the alternative arguments based on Rule 4(k) that
IQVIA puts forth. We therefore REVERSE the
judgment of the district court and REMAND for
further proceedings.

15a
APPENDIX B
_________
UNITED STATES DISTRICT COURT,
N.D. ILLINOIS, EASTERN DIVISION
_________
Florence MUSSAT, M.D., S.C., on Behalf of Plaintiff
and the Class Members Defined Herein,
Plaintiff,
v.
IQVIA INC., and John Does 1–10,
Defendants.
_________
Case No. 17 C 8841
_________
Signed: 10/26/2018
_________
MEMORANDUM OPINION AND ORDER
Virginia M. Kendall, United States District Judge
Florence Mussat, M.D., S.C. sued IQVIA Inc. on
behalf of a putative class, alleging that IQVIA
violated the Telephone Consumer Protection Act by
sending it two “unsolicited advertisements” via fax.
(Dkt. 1.) Mussat sought to represent the putative
class without geographic restriction, including nonIllinois residents who did not receive the alleged
faxes in Illinois. Id. After another district court
applied Bristol-Myers Squibb Co. v. Superior Court of
California, San Francisco Cty., 137 S. Ct. 1773
(2017), to a federal class action under the Act, IQVIA
moved to strike Mussat’s class definition, arguing
that this Court lacks personal jurisdiction over

16a
IQVIA with respect to the unnamed putative class
members who are not Illinois residents. Id. Because
those individuals also did not receive the alleged
faxes in Illinois, their claims do not relate to IQVIA’s
contacts with Illinois, so IQVIA contends that this
Court lacks specific jurisdiction over it. Id. Mussat
claims that Supreme Court precedent permits the
maintenance of a nationwide class action without the
plaintiff’s satisfaction of the “minimum contacts”
analysis. (Dkt. 51.) The focus of the personal
jurisdiction inquiry, however, is the defendant’s
relationship to the forum state, and because
Mussat’s lawsuit does not arise out of or relate to
IQVIA’s contacts with this forum, the Court grants
its motion to strike Mussat’s class definition.
BACKGROUND
Mussat is an Illinois corporation with its principal
place of business in Illinois. (Dkt. 15.) IQVIA is a
Delaware corporation with its principal place of
business in Pennsylvania. Id. Mussat sued IQVIA
under the Telephone Consumer Protection Act,
seeking to represent a geographically unrestricted
putative class of individuals, including:
(a) all persons with fax numbers (b) who, on or
after a date four years prior to the filing of this
action (28 U.S.C. § 1658), (c) were sent faxes
by or on behalf of defendant IQVIA, promoting
its good or services for sale (d) and which did
not contain an opt out notice as described in 47
U.S.C. § 227.

17a
Id. Mussat contends that IQVIA violated the Act by
sending junk faxes to the unnamed members of the
putative class. Id.
On February 27, 2018, Mussat amended its
complaint. Id. IQVIA then amended its answer on
March 21, just nine days following Practice Mgmt.
Support Services, Inc. v. Cirque Du Soleil, Inc., 301
F. Supp. 3d 840 (N.D. Ill. 2018). (Dkt. 26.) In its
answer, IQVIA expressly denied the existence of this
Court’s personal jurisdiction over it—whether it be
general or specific—regarding the claims of the
unnamed putative class members residing outside
Illinois. Id. IQVIA also contested Mussat’s class
definition and affirmatively pled a consistent
personal jurisdiction defense. Id.
STANDARD OF REVIEW
A court “may strike from a pleading an insufficient
defense or any redundant, immaterial, impertinent,
or scandalous matter.” Fed. R. Civ. P. 12(f). In so
doing, the court exercises considerable discretion. See
Delta Consulting Grp., Inc. v. R. Randle Const., Inc.,
554 F.3d 1133, 1141 (7th Cir. 2009). Courts generally
disfavor motions to strike that serve only to delay,
but favor those that serve to expedite the case by
removing any unnecessary clutter. See, e.g., Sapia v.
Bd. of Educ. of City of Chicago, No. 14-CV-07946,
2018 WL 1565600, at *4 (N.D. Ill. Mar. 31, 2018)
(citing Heller Fin., Inc. v. Midwhey Powder Co., 883
F.2d 1286, 1294 (7th Cir. 1989) ).
Courts will strike pleadings that are insufficient as
a matter of law, “meaning they bear no relation to
the controversy or would prejudice the movant.” See,

18a
e.g., Gress v. Reg’l Transportation Auth., No. 17-CV8067, 2018 WL 3869962, at *5 (N.D. Ill. Aug. 15,
2018) (citations omitted). The moving party bears the
burden of showing the “challenged allegations are so
remote to the plaintiff’s claim that they lack merit ...”
See, e.g., id. (citation omitted). Should the request for
relief be unrecoverable as a matter of law, the court
will strike it. See, e.g., Fed. Deposit Ins. Corp. for
Valley Bank v. Crowe Horwath LLP, No. 17 CV
04384, 2018 WL 1508485, at *2 (N.D. Ill. Mar. 27,
2018).
ANALYSIS
IQVIA argues that this Court cannot assert
personal jurisdiction over it regarding the
nonresident putative class members’ claims because
those claims do not arise out of, or relate to, IQVIA’s
contacts with Illinois. Mussat, in response, claims
that IQVIA “waived” its personal jurisdiction
defense, and even if it did not, its contention is
contrary to Supreme Court precedent, which
supports the further proposition that Bristol-Myers
does not apply to class actions.
I. Forfeiture
As an initial matter, IQVIA did not forfeit
(voluntary relinquish) its personal jurisdiction
defense. A party that moves under Rule 12 “must not
make another motion under this rule raising a
defense or objection that was available to the party
but omitted from its earlier motion.” Fed. R. Civ. P.
12(g)(2). True enough, IQVIA did not assert a lack of
personal jurisdiction when it moved to dismiss on
March 14, 2018. (Dkt. 24–25.) So, if this personal

19a
jurisdiction argument was “available” to IQVIA, then
its motion to strike is improper because IQVIA
omitted the defense “from a motion in the
circumstances described in Rule 12(g)(2).” Fed. R.
Civ. P. 12(h)(1)(A). If, however, the argument was
not available to IQVIA at the time it moved to
dismiss, then it did not forfeit that defense because it
made it “by motion under this rule” and included it
“in an amendment allowed by Rule 15(a)(1) as a
matter of course.” Id. at 12(h)(1)(B). A defense is
available if the standard that governs it would have
been the same if relied on earlier. See Am. Fid.
Assur. Co. v. Bank of New York Mellon, 810 F.3d
1234, 1237 (10th Cir.), cert. denied, 137 S. Ct. 90
(2016).
Here, IQVIA’s personal jurisdiction defense was
not available to it when it moved to dismiss on
March 14. First, on its face, Bristol-Myers did not
apply to class actions. See 137 S. Ct. 1773, 1787 n.4
(2017) (Sotomayor, J., dissenting) (observing that
“[t]he Court today does not confront the question
whether its opinion here would also apply to a class
action in which a plaintiff injured in the forum State
seeks to represent a nationwide class of plaintiffs,
not all of whom were injured there.”) (citations
omitted). Second, no court applied the Supreme
Court’s holding or reasoning to a class action under
the Telephone Consumer Protection Act until two
days before IQVIA filed its motion to dismiss on
other grounds. See Practice Mgmt. Support Services,
Inc. v. Cirque Du Soleil, Inc., 301 F. Supp. 3d 840
(N.D. Ill. 2018) (Durkin, J.). Following that decision,
IQVIA timely amended its first responsive pleading

20a
“as a matter of course” under Rule 15(a)(1) on March
21, just nine days later. (Dkt. 26.)
Mussat could not seriously expect IQVIA to know
this defense was available to it at the time it could
have first raised it. Cf. Hawknet, Ltd. v. Overseas
Shipping Agencies, 590 F.3d 87, 92 (2d Cir. 2009)
(noting that a party does not waive a defense when
controlling precedent previously foreclosed it). IQVIA
timely raised the defense following the intervening
decision in Practice Mgmt. Support Services, Inc.,
once it was apparent the defense was cognizable
under Bristol-Myers. See Bennett v. City of Holyoke,
362 F.3d 1, 7 (1st Cir. 2004). It would have, in fact,
been bordering on futile for IQVIA to assert the
defense under precedent at the time. See, e.g.,
VitalGo, Inc. v. Kreg Therapeutics, Inc., No. 16-CV5577, 2017 WL 6569633, at *5 (N.D. Ill. Dec. 21,
2017); Alvarez v. NBTY, Inc., No. 17-cv-00567-BASBGS, 2017 WL 6059159, at *6 (S.D. Cal. Dec. 6,
2017); see also In re Micron Tech., Inc., 785 F.3d
1091, 1094 (Fed Cir. 2017) (stating that a venue
defense raised after an intervening decision was not
available, thus making the waiver rule inapplicable).
Even if IQVIA did forfeit its defense, the Court
would exercise its discretion to excuse the forfeiture.
See Fed. R. Civ. P. 12(f)(1) (stating that the “court
may act on its own” to strike material); see, e.g.,
Leibowitz v. Bowman Int’l, Inc., No. 15 C 3021, 2016
WL 6804580, at *9 (N.D. Ill. Nov. 17, 2016) (quoting
Williams v. Jader Fuel Co., 944 F.2d 1388, 1399 (7th
Cir. 1991) (clarifying that a court acting under Rule
12(f) has the discretion “to consider a motion to
strike at any point in a case,” even when the court’s
attention “was prompted by an untimely filed

21a
motion.”) ); Fed. Deposit Ins. Corp. v. Giannoulias,
No. 12 C 1665, 2014 WL 3376892, at *1 (N.D. Ill.
July 10, 2014) (recognizing that courts “retain
discretion to strike material from a pleading after
the motion deadline in Rule 12(f)(2) has passed”
because 12(f)(1) does not impose a similar time
period) ).
Indeed, this Court has the independent obligation
to identify and apply the law correctly. See, e.g.,
Greene v. Mizuho Bank, Ltd., 289 F. Supp. 3d 870,
877 (N.D. Ill. 2017) (quoting Kamen v. Kemper Fin.
Servs., Inc., 500 U.S. 90, 99 (1991) ); see also ISI Int’l,
Inc. v. Borden Ladner Gervais LLP, 256 F.3d 548,
551 (7th Cir. 2001) (excusing forfeiture and
reasoning that “[f]ederal courts are entitled to apply
the right body of law, whether the parties name it or
not”). Other courts to consider the issue in this
context excused the forfeiture. See, e.g., Practice
Mgmt. Support Services, Inc., 301 F. Supp. 3d at
863–64; America’s Health & Resource center Ltd. v.
Alcon Laboratories, Inc., 16-cv-04539, at *8–9 (N.D.
Ill. June 15, 2018) (order striking the plaintiff’s class
definition to the extent it included non-Illinois
residents). Finally, excusing the forfeiture in this
case would not prejudice Mussatt because, as will be
made clear below, Mussatt is free to pursue its
claims on behalf of unnamed, nonresident class
members in a court that has general jurisdiction over
IQVIA.
II. Personal Jurisdiction
Moving to the merits of the personal jurisdiction
defense, this Court joins the litany of other courts in
this District and elsewhere to hold that the Due

22a
Process Clause of the Fourteenth Amendment
precludes the exercise of personal jurisdiction over a
defendant in a putative class action where
nonresident, absent members seek to aggregate their
claims with an in-forum resident, even though the
defendant allegedly injured the nonresidents outside
of the forum. See, e.g., Chavez v. Church & Dwight
Co., 2018 WL 2238191, at *11 (N.D. Ill. May 16,
2018) (Tharp, J.); Practice Mgmt. Support Services,
Inc., 301 F. Supp. 3d at 864 (Durkin, J.);
DeBernardis v. NBTY, Inc., No. 17 C 6125, 2018 WL
461228, at *2 (N.D. Ill. Jan. 18, 2018) (Leinenweber,
J.); McDonnell v. Nature’s Way Prods., LLC, No. 16 C
5011, 2017 WL 4864910, at *4 (N.D. Ill. Oct. 26,
2017) (Ellis, J.); but see, e.g., Haj v. Pfizer Inc., No. 17
C 6730, 2018 WL 3707561, at *1 (N.D. Ill. Aug. 3,
2018) (Feinerman, J.).
A. Bristol-Myers
In Bristol-Myers, a group of primarily non-resident
plaintiffs, which the defendant pharmaceutical
manufacturer allegedly harmed outside of the forum,
filed a mass tort action in California state court. See
137 S. Ct. at 1778. There, although the state court
did not have general jurisdiction over the defendant,
the state supreme court held that the trial court did
have specific jurisdiction over the defendant with
respect to the nonresidents’ claims because those
individuals could aggregate their claims with the
residents’. See id. The Supreme Court reversed that
decision, holding that the “mere fact that other
plaintiffs were [injured] in California—and allegedly
sustained the same injuries as did the
nonresidents—does not allow the State to assert

23a
specific jurisdiction over the nonresidents’ claims.”
Id. at 1781 (emphasis in original).
The Court reasoned that the “primary focus of our
personal jurisdiction inquiry is the defendant’s
relationship to the forum State.” Id. at 1779
(citations omitted). Indeed, “the suit must arise out
of or relate to the defendant’s contacts with the
forum.” Id. at 1780 (internal quotation marks and
brackets omitted). The Court left open, however, “the
question whether its opinion here would also apply to
a class action in which a plaintiff injured in the
forum State seeks to represent a nationwide class of
plaintiffs, not all of whom were injured there.” Id. at
1789 n.4 (Sotomayor, J., dissenting).
Taking heed of the Supreme Court’s admonition
that the primary concern of the analysis is the
burden on the defendant, other district courts
applied these principles of specific jurisdiction to
federal class actions. It appears that those courts
agree that Bristol-Myers generally applies to bar
nationwide class actions in federal court where the
defendant allegedly injured the named plaintiff
outside the forum. What they seem to disagree on,
however, is whether that precedent controls beyond
that: in cases where the defendant allegedly injured
the named plaintiff inside the forum, enabling that
individual to represent the absent claims of the
nonresident and unnamed putative class members
who the defendant injured outside the forum.
Compare Greene v. Mizuho Bank, Ltd., 289 F. Supp.
3d 870, 872 (N.D. Ill. 2017) (reconsidering part of a
motion to dismiss for lack of personal jurisdiction
after Bristol-Myers, applying it to a named plaintiff
in a putative class action, and granting it as to that

24a
named plaintiff who (1) did not reside in the forum
state, (2) nor did the defendant allegedly injure him
there, (3) nor did the defendant have any contacts
with the forum in connection with that named
plaintiff’s claims, because the mere fact that his
claims were similar, or even identical, to the resident
plaintiff’s claims did not permit the court to assert
specific jurisdiction over the nonresident’s claims),
and Al Haj v. Pfizer Inc., No. 17 C 6730, 2018 WL
1784126, at *6 (N.D. Ill. Apr. 13, 2018) (similar),
with Al Haj v. Pfizer Inc., No. 17 C 6730, 2018 WL
3707561, at *2 (N.D. Ill. Aug. 3, 2018) (denying the
defendant’s renewed motion to strike the complaint’s
nationwide class claims because (1) the named
plaintiff resided in the forum state and (2) the
defendant allegedly injured him there, so the court
could assert specific jurisdiction over his claims, and
it needed not do so over the absent class members’
claims that lacked the requisite nexus to the forum
because those individuals were not parties for the
purposes of assessing personal jurisdiction over the
defendant, only the named plaintiff was).
Turning to the matter before the Court, first,
because the Telephone Consumer Protection Act does
not authorize nationwide service of process, this
Court looks to Illinois law and the Due Process
Clause of the Fourteenth Amendment for the
applicable limits on its exercise of personal
jurisdiction. See Walden v. Fiore, 134 S. Ct. 1115,
1121 (2014). That being so, this Court does not have
general jurisdiction over IQVIA because it is a
Delaware corporation and its principal place of
business is in Pennsylvania. (Dkt. 15.)

25a
Second, Bristol-Myers applies here, at least in the
sense that this is a class action in federal court, so
there must be a named plaintiff allegedly injured
inside the forum state, Illinois. Mussat is an Illinois
corporation with its principal place of business also
in Illinois and Mussat alleged that it received the
two junk faxes from IQVIA in Illinois. Id. The
question, then, for this Court is whether it must have
specific jurisdiction over IQVIA as to each of the
absent class members’ claims that Mussat seeks to
represent. Bristol-Myers holds that due process
requires the defendant be subject to specific
jurisdiction not only as to the named plaintiff’s
claims, but also as to the absent class members’
claims.
B. Absent Class Members’ Claims
For this Court to exercise specific jurisdiction, “the
suit must arise out of or relate to the defendant’s
contacts with the forum.” Bristol-Myers, 137 S. Ct. at
1780 (internal quotation marks and brackets
omitted) (emphasis in original). Indeed, “the mere
fact” that Mussat received two faxes in Illinois “does
not allow” for an exercise of “specific jurisdiction over
the nonresidents’ claims” with respect to faxes
received outside of Illinois because those absent class
members’ claims do not relate to IQVIA’s contacts
with Illinois. Id. at 1781 (brackets omitted). It
follows, then, that exercising specific jurisdiction
over IQVIA with respect to the nonresidents’ claims
would violate IQVIA’s due process rights. Therefore,
the Court must strike the class definition to the
extent it asserts claims of nonresidents. This ruling
should “streamline discovery and simplify the
disputed issues.” See, e.g., America’s Health &

26a
Resource center Ltd. v. Alcon Laboratories, Inc., 16 C
04539, at *8 (N.D. Ill. June 15, 2018) (order granting
motion to strike).
Mussat argues against this result, claiming that it
is contrary to Supreme Court precedent, namely
Califano v. Yamasaki, 442 U.S. 682, 709 (1979), and
Phillips Petroleum v. Shutts, 472 U.S. 797, 811–12
(1985). Yet, Califano did not address the propriety of
specific jurisdiction over absent class members’
claims. See 442 U.S. at 684. Even so, the Court did,
in fact, assume several times for the purposes of
deciding that case that jurisdiction was a
prerequisite to the statutory, class certification, and
remedial requirements at issue there. See id. at 701,
702 (stating that where “the district court has
jurisdiction over the claim of each individual member
of the class,” “where the district court has
jurisdiction over the claims of the members of the
class,” and “if jurisdiction lies over the claims of the
members of the class ...”). Otherwise, Califano is
inapposite, and for the same reasons, so is City of
Chicago v. Sessions, 888 F.3d 272 (7th Cir. 2018)
(reviewing the scope of a nationwide injunction).
As for Shutts, the Court considered an exercise of
personal jurisdiction over plaintiffs, not defendants.
See 472 U.S. at 811–12. As it happens, the Court
spent a good portion of its opinion distinguishing
between absent class action plaintiffs and absent
defendants, reasoning that states place fewer
burdens upon plaintiffs than they do on defendants,
and as such, the according due process protections
differ between the two. See id. at 808–12 (explaining
that the “burdens placed by a State upon an absent
class-action plaintiff are not of the same order or

27a
magnitude as those it places upon an absent
defendant. An out-of-state defendant summoned by a
plaintiff is faced with the full powers of the forum
State to render judgment against it,” and because
“States place fewer burdens upon absent class
plaintiffs than they do upon absent defendants in
nonclass suits, the Due Process Clause need not and
does not afford the former as much protection from
state-court jurisdiction as it does the latter.”)
(emphasis in original). In Shutts, as here, “the classaction defendant itself has a great interest in
ensuring that the absent plaintiff’s claims are
properly before the forum.” Id. at 809.
If anything, Shutts counsels against Mussat’s
position in this case. The Supreme Court recognized
as much in Bristol-Myers when it expressly
distinguished Stutts. See 137 S. Ct. at 1783
(clarifying that because “Shutts concerned the due
process rights of [nonresident] plaintiffs ... it has no
bearing on the question presented.”). Unlike this
case, the Court concluded that the defendant in
Shutts “did not assert that [the State] improperly
exercised personal jurisdiction over it, and the Court
did not address that issue.” Id. Here, however,
IQVIA claims that this Court’s exercise of personal
jurisdiction over it would violate its due process
rights, not the due process rights of the nonresident
class members.
Following the Supreme Court’s lead in BristolMyers and applying its core reasoning here, due
process, as an “instrument of interstate federalism,”
requires a connection between the forum and the
specific claims at issue. 137 S. Ct. at 1780–81. This
recognition bars nationwide class actions in fora

28a
where the defendant is not subject to general
jurisdiction. Whether it be an individual, mass, or
class action, the defendant’s rights should remain
constant. See, e.g., Practice Mgmt. Support Servs.,
Inc., 301 F. Supp. 3d at 861 (deciding that under “the
Rules Enabling Act, a defendant’s due process
interest should be the same in the class context” as
all others).
Shady Grove Orthopedic Assocs., PA v. Allstate Ins.
Co., 559 U.S. 393 (2010) does not change this. There,
the Court merely held that Rule 23 preempted
conflicting state laws. Id. at 399. Here, however,
there is no conflicting state law at issue. Moreover,
the Constitution and state law guide the personal
jurisdiction analysis, which affects only the forum
where this suit may be brought. That consequence
does not run afoul of the Rules Enabling Act.
Conversely, faithfully interpreting the Act here
ensures the consistent and uniform application of
defendants’ due process rights in class actions under
Rule 23, as compared to the maintenance of
individual or mass actions. This construction ensures
that Rule 23—a rule of procedure subject to the Act’s
limitations—does not violate the Act by extending
the personal jurisdiction of the federal courts to
“abridge, enlarge or modify” a “substantive right.” 28
U.S.C. § 2072(b).
III. Venue
As a final matter, Mussat asks this Court to
transfer the case to the United States District Court
for the District of Delaware or the United States
District Court for the Eastern District of
Pennsylvania under 28 U.S.C. § 1406. (Dkt. 51.) But

29a
venue is appropriate in the Northern District of
Illinois, see 28 U.S.C. § 1391(b)(2)–(3), so that statute
cannot support transferring this case. See In re
LimitNone, LLC, 551 F.3d 572, 575–76 (7th Cir.
2008). Because venue is proper here, § 1404(a),
rather than § 1406(a), provides the authority for a
potential transfer. See id. (citing 28 U.S.C. § 1404(a)
(“For the convenience of parties and witnesses, in the
interest of justice, a district court may transfer any
civil action to any other district or division where it
might have been brought or to any district or division
to which all parties have consented.”) ). In its
discretion, the Court declines to transfer the case.
Mussat remains free to voluntarily dismiss this case
and refile it in a court where IQVIA is subject to that
court’s general jurisdiction.
CONCLUSION
Because there is no connection between Illinois and
the absent class members’ claims, the Court grants
IQVIA’s motion to strike Mussat’s class definition to
the extent that Mussat seeks to assert those claims
on behalf of nonresidents that did not allegedly
receive faxes in Illinois.

30a
APPENDIX C
_________
UNITED STATES COURT OF APPEALS,
FOR THE SEVENTH CIRCUIT
_________
No. 19-1204
_________
FLORENCE MUSSAT, M.D., S.C., on behalf of itself
and the all others similarly situated,
Plaintiff-Appellant,
v.
IQVIA INC., et al,
Defendants-Appellees.
_________
May 14, 2020
_________
Before
DIANE P. WOOD, Chief Judge
MICHAEL S. KANNE, Circuit Judge
AMY C. BARRETT, Circuit Judge
_________
Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division
_________
No. 17 C 8841
_________
Virginia M. Kendall, Judge.
_________

31a
ORDER
Defendants-appellees filed a petition for rehearing
and rehearing en banc on April 8, 2020. No judge1 in
regular active service has requested a vote on the
petition for rehearing en banc, and all members of
the original panel have voted to deny panel
rehearing. The petition for rehearing en banc is
therefore DENIED.

1

Judge Joel M. Flaum did not participate in the consideration
of this matter.

